OFFICE OF THE
SECRETARY
Status of Departmental
Actions to Correct
National Weather Service
Mismanagement of Funds

FINAL REPORT NO. OIG-13-029-1
SEPTEMBER 13, 2013



U.S. Department of Commerce
Office of Inspector General
Office of Audit and Evaluation




FOR PUBLIC RELEASE
                                                              UNITED STATES DEPARTMENT OF COMMERCE
                                                              Office of Inspector General
                                                              W ashington, D.C. 20230




September 13, 2013

MEMORANDUM FOR:              Ellen Herbst
                             Chief Financial Officer and Assistant Secretary for Administration


FROM: 	                      Ann Eilers   ,Jnk(] {.;;;~a~
                                                   Q t'.,.._,
                              Principal Assistant Inspector         for Audit and Evaluation

SUBJECT:                      Status of Departmental Aaions to Correa NWS Mismanagement of
                                Funds
                              Final Report No. OIG-13-029-1

Attached please find the final report of our review of actions taken to address identified
weaknesses from the Department's internal inquiry report of May 11, 2012, entitled Internal
Inquiry into Alleged Mismanagement of Funds Within the National Weather Service. Our review
compared Departmental actions against what was requested in the separate May 24, 2012,
decision memorandums issued by the then Deputy Secretary of Commerce and then Under
Secretary of Commerce for Oceans and Atmosphere.

We found that, while the Department and NOAA have completed many key action plan items,
they still need to finalize several others. Further, the Department and NOAA must take
additional action to address identified weaknesses. Our report provides further details on these
findings, as well as several recommendations.

In accordance with Department Administrative Order 213-5, please provide us your action plan
within 60 days of this memorandum. The plan should outline the actions you propose to take
to address each audit recommendation.

We appreciate the cooperation and courtesies extended to us by your staff during our review.
If you have any questions or concerns about this report, please do not hesitate to contact me
at (202) 482-4238, or Andrew Katsaros, Assistant Inspector General for Audit, at
(202) 482-7859.

Attachment

cc: 	   Lisa Casias, Deputy Chief Financial Officer and Director for Financial Management
        David Kennedy, Deputy Under Secretary for Operations, NOAA
        MaryAnn Mausser, Audit Liaison
        Mack Cato, Audit Liaison, NOAA
                                                   Report In Brief                                     S E P T E M BE R 1 3 , 2 0 1 3



Background                                 OFFICE OF THE SECRETARY
In 2010 and 2011, the Department
and OIG received a series of com-          Status of Departmental Actions to Correct
plaints about mismanagement of             National Weather Service Mismanagement of Funds
funds within the National Weather
Service (NWS). On May 11, 2012,            OIG-13-029-I
the Department issued its Internal
Inquiry into Alleged Mismanagement         WHAT WE FOUND
of Funds Within the National Weath-        Our review found that the Department and NOAA have taken steps to address the findings
er Service. The Department                 identified in the Department’s internal inquiry, some of which were still ongoing as of our
found—in addition to the unau-             March 2013 end of fieldwork. Since May 2012, the Department and NOAA completed 15 out
thorized reprogramming of NWS              of 20 of their planned action items. We noted that the Department and NOAA need to take
funds in fiscal years (FYs) 2010 and       additional steps to ensure that budget formulation processes at line offices and the bureau are
2011—significant management,               transparent and accountable, provide training to certain NOAA officials, and review NOAA’s
leadership, budget, and financial          financial management team.
control problems at NWS that re-
sulted in Antideficiency Act violations.     Many key action plan items are complete. The Department and NOAA made progress in

                                             completing many key actions to address the concerns identified in the May 11, 2012, 

Following the release of the May             internal inquiry report. The Department also determined that NOAA violated the 

11, 2012, report, then-Deputy                Antideficiency Act by reprogramming and constructively transferring funds between

Secretary Rebecca Blank and                  appropriation accounts without providing advance notice as required by law—and took 

then-Under Secretary of Com-                 action to address the violations. 

merce for Oceans and Atmos-
phere Jane Lubchenco issued                  Several action items need to be finalized. While the Department and NOAA closely
separate decision memorandums                monitored the progress of planned action items through biweekly updates to the Deputy
on May 24, 2012, which required              Secretary’s office, several action items remain incomplete. The Department’s review of
specific actions for correcting the          summary level transfers (SLTs) determined a lack of appropriate internal controls, and it is
conditions leading to the report’s           currently modifying automated controls in its Commerce Business System (CBS). Next,
findings. These decision memo-               third-party reviews of budget operating plans and SLTs were in the draft reporting stage at
randums required Departmental                the time we completed our fieldwork. Finally, regarding the review of the Department’s
actions on 20 distinct activities,           complaint process, NOAA has conducted a review to verify the existence of a complaint
including audits, organizational             process within the Department—but it has not taken steps to communicate the process to staff.
reporting adjustments, and                   Additional actions are needed to address identified weaknesses. Our review of the Department
changes to budget formulation                and NOAA’s actions taken to complete the Deputy Secretary’s and Under Secretary’s
and execution processes.                     memorandums revealed unsupported findings and an overreliance on generalized training
Why We Did This Review                       programs. We also determined that the required action plans did not include a review of
                                             NOAA’s financial management team.
On June 7, 2012, the U.S. Senate
Appropriations Subcommittee                WHAT WE RECOMMEND
for Commerce, Justice, Science,
                                           We recommend that the Department’s Chief Financial Officer take appropriate action to:
and Related Agencies asked OIG
to review materials and findings            1.	 Issue an informational notice alerting Departmental staff to the OIG online hotline 

from the Department’s internal                  complaint process.

inquiry report. We then re-                 2.	 For future inquiries, ensure that Departmental offices are aware of the requirement to
viewed the actions taken by the                 obtain and keep documentation supporting data requests and conclusions reached.
Department and NOAA to ad-                  3.	 Provide a training module for NOAA managers and employees on reporting complaints
dress identified weaknesses to                  of fraud, waste, abuse, and mismanagement at NOAA.
determine the adequacy of such
                                            4.	 Evaluate the impact of Departmental senior executive training on the overall

actions in addressing issues aris-
                                                proficiency related to managing human, financial, and informational resources.

ing from NWS’s FY 2012 repro-
gramming requests. Our review               5.	 Document an analysis of NOAA’s financial management leadership that addresses 

compared actions against what was               improper past practices and how the current leadership team can provide effective 

directed in the separate May 24,                financial management direction. 

2012, decision memorandums.
U.S. DEPARTMENT OF COMMERCE                                                                                         OFFICE OF INSPECTOR GENERAL


Contents

Introduction .......................................................................................................................................................1

Findings and Recommendations ....................................................................................................................2

   I.      Many Key Action Plan Items Are Complete...................................................................................2

   II.     Several Action Items Need to Be Finalized ....................................................................................3

   III. Additional Actions Are Needed to Address Identified Weaknesses........................................3

Summary of Agency Response and OIG Comments................................................................................6

Appendix A: Objective, Scope, and Methodology.....................................................................................7

Appendix B: The Deputy Secretary’s Eight Directives.............................................................................8

Appendix C: Under Secretary of Commerce for Oceans and Atmosphere’s 12 Directives..........9

Appendix D: Agency Response .................................................................................................................. 11





                                                                                                                       COVER: Detail of fisheries pediment,
                                                                                                              U.S. Department of Commerce headquarters,

                                                                                                                      by sculptor James Earle Fraser, 1934





FINAL REPORT NO. OIG-13-029-I
    U.S. DEPARTMENT OF COMMERCE                                                      OFFICE OF INSPECTOR GENERAL



Introduction

In 2010 and 2011, the Department of Commerce (the Department1) and Office of the
Inspector General (OIG) received a series of complaints about mismanagement of funds within
the National Weather Service (NWS) prompting the Department to conduct an internal
inquiry. On May 11, 2012, the Department issued its Internal Inquiry into Alleged Mismanagement
of Funds Within the National Weather Service. The Department found—in addition to the
unauthorized reprogramming of NWS funds in fiscal years (FYs) 2010 and 2011—significant
management, leadership, budget, and financial control problems at NWS that resulted in
Antideficiency Act violations.

The Department’s report stated that additional problems arose from several areas within
NWS. Summary level transfers (SLTs) were used to facilitate the inappropriate reallocation of
expenses.2 Required NWS program office payments for common services were inappropriately
assessed. The NWS Office of the Chief Financial Officer (OCFO) staff, despite their objections,
participated in the unlawful reprogramming of funds. The NWS Assistant Administrator also
failed to provide oversight and fostered an environment of mistrust within the OCFO. In
addition, financial and management controls were ineffective at preventing an unlawful
reprogramming of funds, and allegations of improprieties in NWS fund transfers were revealed.

Following the release of the May 11, 2012, report, then-Deputy Secretary Rebecca Blank and
then-Under Secretary of Commerce for Oceans and Atmosphere Jane Lubchenco issued
separate decision memorandums on May 24, 2012, which required specific actions for
correcting the conditions leading to the report’s findings. These decision memorandums
required Departmental actions on 20 distinct activities, including audits, organizational reporting
adjustments, and changes to budget formulation and execution processes. We provided a
complete list of all the Department and NOAA directives in appendixes B and C.

On June 7, 2012, the U.S. Senate Appropriations Subcommittee for Commerce, Justice, Science,
and Related Agencies asked OIG to review materials and findings from the Department’s
internal inquiry report. We then reviewed the actions taken by the Department and NOAA to
address identified weaknesses to determine the adequacy of such actions in addressing issues
arising from NWS’s FY 2012 reprogramming requests. Our review compared actions against
what was directed in the separate May 24, 2012, decision memorandums. Because resulting
outcomes of these changes will likely occur over several years, we did not evaluate the

1
  The Department, for purposes of this report, comprises several offices within the Office of the Secretary. These
include the Office of the Chief Financial Officer, Office of General Counsel, and Office of the Chief Information
Officer.
2
  A summary level transfer (SLT) is the movement of summary-level paid costs from one account (e.g., a line office;
an organizational entity; a program, project, or activity; or an object class) to another for the purpose of correcting
erroneously recorded costs. SLTs are only used with summary paid costs, not transactional-level data, undelivered
orders, or unpaid costs. An SLT is used as a convenience to avoid lengthy transactional-level transfers. The
Department found that NWS inappropriately used SLTs to change accounting codes on expenses previously paid
out of the NWS Local Warnings and Forecasts (LWF) base budget to those of other activities, thereby freeing up
flexible LWF funds for almost any purpose.




FINAL REPORT NO. OIG-13-029-I                                                                                         1
      U.S. DEPARTMENT OF COMMERCE                                           OFFICE OF INSPECTOR GENERAL


     immediate effects of these actions. For further details about our objective, scope, and
     methodology, please see appendix A.


     Findings and Recommendations
     Our review found that the Department and NOAA have

     taken steps to address the findings identified in the 

     Department’s internal inquiry, some of which were still 
        The Department and NOAA
     ongoing as of our March 2013 end of fieldwork. Since May
          have addressed 15 of 20
     2012, the Department and NOAA completed 15 out of 20 
              required action items.
     of their planned action items. We noted that the 

     Department and NOAA need to take additional steps to

     ensure that budget formulation processes at line offices and the bureau are transparent and

     accountable, provide training to certain NOAA officials, and review NOAA’s financial
	
     management team as identified in appendixes B and C. 


I.       Many Key Action Plan Items Are Complete

         The Department and NOAA made progress in completing many key actions to address the
         concerns identified in the May 11, 2012, internal inquiry report. Specifically, the Department
         and NOAA:
             	 Revised policies and procedures related to SLT internal control and approval
                processes
             	 Reviewed NOAA’s supervisory oversight structure, including its financial
                management supervisory reporting structure
             	 Reviewed its budget formulation process and developed appropriate avenues for
                financial managers to raise budget concerns
             	 Reviewed the NWS common services account to address allocation issues
             	 Provided training opportunities and informational notices on appropriations
                concepts and financial oversight to senior executives and all employees in budget
                roles
         These steps were designed to strengthen internal controls and ensure that inappropriate
         transfers of funds do not continue.

         The Department also determined that NOAA violated the Antideficiency Act by
         reprogramming and constructively transferring funds between appropriation accounts
         without providing advance notice as required by applicable provisions of the FY 2010
         appropriations act and FY 2011 full-year continuing resolution. The Department took action
         to address the violations.




     FINAL REPORT NO. OIG-13-029-I                                                                    2
        U.S. DEPARTMENT OF COMMERCE                                           OFFICE OF INSPECTOR GENERAL


 II.       Several Action Items Need to Be Finalized

           While the Department and NOAA closely monitored the progress of planned action items
           through biweekly updates to the Deputy Secretary’s office, several action items remain
           incomplete:

               SLT source documentation and management approval. The Department’s review of
               SLTs determined that there was a lack of appropriate internal controls, including no
               source documentation to support transactions and no management approval. The
               Department is currently modifying automated controls in its Commerce Business
               System (CBS) that will monitor transactions and flag any that reach a specified threshold
               to ensure proper approval before completing the transaction.

               Third-party reviews. The Department and NOAA contracted with separate third
               parties to review all budget operating plans and SLTs for the period from FY 2006 to
               the first quarter of FY 2012, as well as the methodologies of the bureaus’ allocation of
               common central service costs. The review of budget operating plans and SLTs was in
               the draft reporting stage at the time we completed our fieldwork. The contractor
               reviewing the bureaus’ allocation of common central service funds ran into setbacks due
               to the large scope of work when reviewing NOAA’s process and had to extend the
               contract.

                Review of the Department’s complaint process. While NOAA conducted a review
                to verify the existence of a complaint process within the Department, it has not taken
                steps to communicate the process to staff. Due to conflicting priorities, NOAA has
                neither sent an informational notice alerting staff to the OIG hotline complaint process
                nor provided its managers and employees a training module that educates and informs
                them of their responsibility to report complaints of fraud, waste, abuse, or
                mismanagement at NOAA. We believe that NOAA should make these educational
                measures a priority, as managers and employees are required to report identified fraud,
                waste, abuse, or mismanagement.

III.       Additional Actions Are Needed to Address Identified Weaknesses

           Review of the Department and NOAA’s actions taken to complete Deputy Secretary
           Rebecca Blank’s and Under Secretary of Commerce for Oceans and Atmosphere Jane
           Lubchenco’s memorandums revealed unsupported findings and an overreliance on
           generalized training programs. We also determined that the required action plans did not
           include a review of NOAA’s financial management team.

               Budget process transparency. To determine whether bureau and line office processes
               for budget formulation and execution are transparent and accountable, the Department
               developed a questionnaire to solicit feedback on the budget formulation and execution
               processes for the 12 bureaus and 2 Departmental oversight offices. As part of this
               inquiry, the Department’s Office of Budget reviewed the questionnaire responses, along
               with any supporting documentation provided, and met with budget officials from each


       FINAL REPORT NO. OIG-13-029-I                                                                       3
 U.S. DEPARTMENT OF COMMERCE                                            OFFICE OF INSPECTOR GENERAL


        bureau. The Department concluded that its budget formulation and execution processes
        are transparent and promote accountability.
        However, our review of the Department’s inquiry disclosed that the Department did
        not maintain or create documents to support its determination. The Office of Budget—
        which mostly relied on the bureaus’ questionnaires and interviews—often did not
        request that the bureaus provide documentation to support responses made during the
        inquiry. As a result, 10 of the 14 total bureaus and oversight offices responded with
        partially supported questionnaires, incomplete support, or in one case an unresponsive
        questionnaire with supporting documents for only some of the questions. For instance,
        one bureau did not provide documentation evidencing its budget execution and
        formulation processes. The Department should consistently obtain and keep supporting
        documentation to ensure the accuracy of statements and data provided by the bureaus.
        Adequacy of financial training. A study of NOAA’s senior executives, which
        addressed a directive in Undersecretary Lubchenco’s memo, disclosed that not all
        members possessed the required ability to manage human, financial, and information
        resources strategically to provide effective fiscal oversight. This jeopardizes NOAA’s
        organizational performance and reputation. To address this concern, NOAA is relying
        on the training programs provided by the Department’s Office of General Counsel
        (OGC) on appropriations law concepts, including the Antideficiency Act. While we
        believe this training provided important information, it did not address all the concerns
        raised by the study. NOAA is also in the process of drafting executive development
        plans (EDPs) for all NOAA executives. As NOAA develops the EDPs, it should evaluate
        the impact of the Departmental training on overall level of proficiency of the senior
        executives and take additional steps to ensure that they gain any necessary knowledge
        and skills.

         Efficacy of NOAA leadership. Our review of the actions taken to address the issues
         arising from the reprogramming request disclosed that the action plan memorandums
         did not require a review of competencies of certain financial management positions and
         management practices at NOAA. Such an assessment is necessary to better understand
         current leadership proficiencies and to provide assurances that past practices that led to
         the mismanagement of funds at NOAA have been addressed.
         As early as FY 2010, individuals within the NWS budget execution leadership team
         learned of inappropriate fund transfers that occurred at NWS as early as FY 2009 and
         were subsequently directed to participate in the reallocation of 2010 funds. Additional
         interviews associated with subsequent inquiries suggest that multiple individuals within
         NOAA leadership were aware of the redirection of funds that took place at NWS but
         did not take needed corrective actions. All of these issues occurred under the
         leadership of NOAA’s then-chief financial officer, who is now NOAA’s chief resource
         and operations manager overseeing administrative functions and financial management.

         Further, after the May 2012 internal inquiry report, our office continued to receive
         hotline complaints that other funds possibly were improperly moved during this period.
         After the budget reprogramming issues were discovered, it was revealed that NOAA
         financial management leadership encountered issues in accounting for satellites and


FINAL REPORT NO. OIG-13-029-I                                                                       4
    U.S. DEPARTMENT OF COMMERCE                                                      OFFICE OF INSPECTOR GENERAL


         general property. These issues resulted in a material weakness3 in the Department’s FY
         2012 financial statements.

         For these reasons, we believe that NOAA and the Department should assess the
         various budget and financial management leadership roles and competencies within
         NOAA. It is important that the current leadership team addresses past improper
         practices and provides effective financial management direction of NOAA’s operations.

Recommendations

We recommend that the Department’s Chief Financial Officer take appropriate action to:

      1.	 Issue an informational notice alerting Departmental staff to the OIG online hotline
          complaint process.

      2.	 For future inquiries, ensure that Departmental offices are aware of the requirement to
          obtain and keep documentation supporting data requests and conclusions reached.

      3.	 Provide a training module for NOAA managers and employees on reporting complaints
          of fraud, waste, abuse, and mismanagement at NOAA.

      4.	 Evaluate the impact of Departmental senior executive training on the overall proficiency
          related to managing human, financial, and informational resources.

      5.	 Document an analysis of NOAA’s financial management leadership that addresses
          improper past practices and how the current leadership team can provide effective
          financial management direction.




3
 A material weakness is a deficiency, or combination of deficiencies, in internal controls that leaves open a
reasonable possibility that a material misstatement of the entity’s financial statements will not be prevented,
detected, and corrected on a timely basis.




FINAL REPORT NO. OIG-13-029-I                                                                                     5
 U.S. DEPARTMENT OF COMMERCE                                          OFFICE OF INSPECTOR GENERAL



Summary of Agency Response and
OIG Comments
OIG received the Department’s comments on the draft report, which we include as appendix
D of this final report. Generally, the Department concurs with the findings and
recommendations in the report. While the Department has implemented some improvements
in response to the May 24, 2012, decision memorandums, it will also develop corrective action
plans and ensure timely implementation to address OIG recommendations.

Because the Department’s response did not specifically address concurrence with each
individual recommendation, this will be required before the OIG accepts an audit resolution
proposal. Department Administrative Order 213-5, Audit Resolution and Follow-Up, Section 5,
part .01(d)(3) requires organizational units to ensure that a written determination is prepared
specifying concurrence or nonconcurrence with each recommendation. The written
determination shall present a specific plan of corrective action, with appropriate target dates
for implementing all accepted recommendations, and shall provide a justification for
nonconcurrence with any recommendations.

We look forward to receiving the Department’s action plans.




FINAL REPORT NO. OIG-13-029-I                                                                     6
 U.S. DEPARTMENT OF COMMERCE                                           OFFICE OF INSPECTOR GENERAL


Appendix A: Objective, Scope, and
Methodology
We initiated this review in response to a June 7, 2012, request from the U.S. Senate
Appropriations Subcommittee on Commerce, Justice, Science and Related Agencies to review
materials and findings from a May 11, 2012, internal inquiry report prepared by the Department
of Commerce (the Department). The May 11 report highlighted the management of budgetary
resources that resulted in the National Weather Service (NWS) budget shortfalls. Deputy
Secretary Blank and Under Secretary Lubchenco issued separate decision memorandums on
May 24, 2012, which required specific actions for correcting the conditions leading to the
report’s findings.

Our objective was to determine the adequacy of actions taken by the Department and National
Oceanic and Atmospheric Administration (NOAA) in addressing issues arising from the FY
2012 reprogramming requests. Considering the 20 action items required by Deputy Secretary
Blank and Under Secretary Lubchenco, we established a systematic review of the Department’s
and NOAA’s actions to address each requirement.

We interviewed officials and reviewed documentation from the Department’s Offices of the
Deputy Secretary, Chief Financial Officer (CFO), Financial Management, Budget, Chief Human
Capital Officer, and General Counsel. We also interviewed officials and reviewed
documentation from NOAA’s Offices of Finance, Workforce Management, and Chief
Administrative Officer, as well as from NWS.

We conducted our review from August 2012 through March 2013. Our work was performed
in accordance with Quality Standards for Inspection and Evaluation (2012) issued by the President’s
Council on Integrity and Efficiency, and under authority of the Inspector General Act of 1978,
as amended, 5 U.S.C. App. 3, and Department Organization Order 10-13 (2006).




FINAL REPORT NO. OIG-13-029-I                                                                     7
    U.S. DEPARTMENT OF COMMERCE                                                  OFFICE OF INSPECTOR GENERAL


Appendix B: The Deputy Secretary’s Eight
Directives
                                        Action Item                                                Status
       Direct NOAA to provide an implementation plan for each of the decisions
1      contained in Under Secretary Lubchenco's memorandum, with a timetable                      Complete
       and milestones.
       Conduct a comprehensive review of how summary level transfers (SLTs) are              Partially complete;
       used across the Department and whether they are used appropriately and                discussed in finding
       there are proper procedures in place for approving and monitoring such                  2, “SLT source
2
       transactions. Also, determine whether automated controls can be added to              documentation and
       the existing departmental financial management system to flag SLTs that                  management
       warrant additional review.                                                                 approval”
       Examine the bureaus’ budget formulation processes to determine whether
       the Department’s recent reforms are appropriately implemented and
3      cascaded. Also, ensure that there are appropriate avenues for financial                    Complete
       managers within the Department to raise concerns about budget issues
       without fear of retaliation.
       Develop a training program that addresses core appropriations law concepts,
       including reprogramming, the Antideficiency Act, and the appropriate use of                Complete
4
       SLTs. Each bureau should designate staff that would benefit from this training
       and require it as part of their performance plans.
       Develop a training program that addresses financial oversight and basic tenets
       of appropriations law for appropriate senior executive service (SES)
5      employees and political appointees who oversee any budget processes.                       Complete
       Bureaus should develop a list of political appointee positions that require this
       training as well.
       Ensure that both SES and political leadership within the Department are
6      trained on the proper process for reviewing and responding to complaints                   Complete
       made regarding misconduct allegedly occurring under their supervision.4
       Conduct a review of procedures currently used by bureaus to allocate                  Partially complete;
       funds from sub-bureaus and line offices to common central service funds and           discussed in finding
7
       ensure that the procedures are transparent and result in fair and objective             2, “Third-party
       allocations.                                                                                reviews”
       Oversee a review of the reporting structure of all Bureaus within the
8      Department that contain line offices to make sure that all line CFOs are                   Complete
       appropriately supervised.
Source: U.S. Department of Commerce, May 24, 2012. Deputy Secretarial Decision Memorandum, “Decisions
Regarding Recommendations Contained in Report Entitled Internal Inquiry into Alleged Mismanagement of Funds
Within the National Weather Service."




4
 The Deputy Secretary also asked the Inspector General to review his process to ensure that complaints received
by OIG are appropriately addressed.




FINAL REPORT NO. OIG-13-029-I                                                                                  8
 U.S. DEPARTMENT OF COMMERCE                                               OFFICE OF INSPECTOR GENERAL


Appendix C: Under Secretary of Commerce for
Oceans and Atmosphere’s 12 Directives
                                    Action Item                                            Status
     Deliver the FY 2012 reprogramming requests to NOAA’s Appropriations
1                                                                                         Complete
     and Authorizing Committees.
     Fully fund the NWS common services account at the beginning of each
     fiscal year. Also, assess NWS programs equably for common services and
2    ensure that there is a training procedure to make required staff aware that          Complete
     it is NOAA policy to ensure that program offices are assessed equably for
     common service accounts.
     Change the supervisory structure of NWS so that the financial process is
     directly supervised by the NWS Deputy Assistant Administrator (AA) and
     the NWS AA and NOAA CFO serve as reviewing officials on the NWS
     CFO performance plan and evaluation. Review the supervisory structure in
3    all other NOAA line offices to ensure that the line office AA, Deputy AA,            Complete
     and NOAA CFO all play a role in the rating and reviewing of line office
     CFO performance plans and evaluations. Examine the membership, roles,
     and responsibilities of the Corporate Board for providing budget review
     and oversight going forward.
     Expand the current supervision of SLTs to ensure that the transactions are
4                                                                                         Complete
     appropriately reviewed.
     Create and implement an action plan to ensure that senior program
     managers and NWS leadership provide input into NWS budget decisions
5                                                                                         Complete
     and to create avenues to raise concerns about budget issues to NOAA and
     NWS leadership without fear of retaliation.
     Create a well-documented process that includes explicit time for
6    programmatic decisions that align NWS budget formulation and execution               Complete
     with available funds.
     Undertake a review of the financial management and oversight experience
     within NOAA AA, Deputy AA, and any other SES leadership positions
     identified as having budget formulation and execution oversight roles.
7                                                                                         Complete
     Propose additional training necessary to ensure that all NOAA personnel
     who are involved in financial transactions have the requisite knowledge to
     perform their duties responsibly.
     Contract with outside independent firms to conduct a financial audit and a
                                                                                      Partially complete;
     program audit of NWS for FY 2006 through the first quarter of FY 2012.
                                                                                    discussed in finding 2,
8    The financial audit must investigate whether there is a “structural deficit”
                                                                                         “Third-party
     within the NWS budget and whether any other line offices were involved in
                                                                                           reviews”
     or harmed by the unauthorized transactions.
     Examine each program office to determine whether the belief that a
9    "structural deficit" existed in the NWS budget is supported by evidence and          Complete
     if so, determine the causes and extent of that shortfall.
     Determine whether an Antideficiency Act violation occurred and if so,
10                                                                                        Complete
     make appropriate notifications to Congress.




FINAL REPORT NO. OIG-13-029-I                                                                           9
 U.S. DEPARTMENT OF COMMERCE                                                    OFFICE OF INSPECTOR GENERAL


                                      Action Item                                                Status
     Review the current system of filing, logging, and responding to the type of
     fiscal complaints that prompted this investigation and recommend any                  Partially complete; 

     further changes in consultation with Department officials and Office of                   discussed in 

     Inspector General. In addition, reaffirm through yearly all-hands messages                 finding 2,

11
     where and how employees should send anonymous complaints, and what                      “Review of the 

     steps managers can take to quickly evaluate such complaints and ensure                   Department’s
	
     appropriate and timely follow-up. Also, institute a yearly training for all           complaint process”
	
     NOAA SES employees regarding how to handle anonymous complaints.
                                                                                           Partially complete; 

     Review delegations of authority to all NOAA line offices and ensure that                  discussed in 

     sufficient avenues exist within NOAA for employees to raise serious                        finding 2, 

12
     concerns to headquarters without fear of retaliation from their immediate               “Review of the
     supervisors.                                                                             Department’s
                                                                                           complaint process”
Source: U.S. Department of Commerce National Oceanic and Atmospheric Administration, May 24, 2012. Under

Secretarial Decision Memorandum, “Corrective Actions re: Internal Inquiry into Alleged Mismanagement of Funds

Within the National Weather Service.”
	




FINAL REPORT NO. OIG-13-029-I                                                                                    10
 U.S. DEPARTMENT OF COMMERCE    OFFICE OF INSPECTOR GENERAL



Appendix D: Agency Response





011200000153


FINAL REPORT NO. OIG-13-029-I                         11
